         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Does Not Always
       Receive Adjustment Vouchers
       from Contractors
       Report No. 10-P-0075

       March 8, 2010
Report Contributors:                             Michael Petscavage
                                                 Doug LaTessa
                                                 Denise Darasaw
                                                 Marcia Hirt-Reigeluth
                                                 Kevin Lawrence




Abbreviations

CO           Contracting Officers
DCAA         Defense Contract Audit Agency
EPA          U.S. Environmental Protection Agency
FACO         Financial Administrative Contracting Officer
FAR          Federal Acquisition Regulation
FY           Fiscal Year
MATS         Management Audit Tracking System
OAM          Office of Acquisition Management
OIG          Office of Inspector General
PO           Project Officer
                       U.S. Environmental Protection Agency 	                                          10-P-0075
                                                                                                    March 8, 2010
                       Office of Inspector General


                       At a Glance
                                                                       Catalyst for Improving the Environment


Why We Did This Audit	             EPA Does Not Always Receive
We conducted this audit to         Adjustment Vouchers from Contractors
determine whether the U.S.
Environmental Protection            What We Found
Agency (EPA) is timely
receiving adjustment vouchers      EPA does not always receive adjustment vouchers from contractors for
and credits from contractors       final negotiated indirect cost rates. The final indirect cost rate agreements
based on sustained Defense         provide the contractor 60 days to submit a voucher for any billing
Contract Audit Agency              adjustments. For 17 of the 20 DCAA audit reports in our sample, EPA did
(DCAA) audit results.              not timely receive an adjustment voucher on at least one or more EPA
                                   contracts. The 20 audit reports impacted 52 EPA contracts, for which EPA
Background                         did not receive adjustment vouchers for 33. Seven adjustment vouchers
                                   were received late. The only nine vouchers that were received timely all
DCAA performs audits of
                                   involved EPA owing the contractor money.
final indirect cost rate
proposals that impact EPA
contracts. After negotiations      EPA does not have an effective system to ensure required adjustment
with the contractor, EPA           vouchers are received. As a result, EPA allowed contractors to keep
establishes final indirect cost    government funds and provided them with interest-free loans in those cases
rate agreements. Once the          where the contractor owed EPA money. In some cases, contractors kept
final indirect cost rate           money owed the government for years. For example, one contractor that did
agreement is established,          not submit adjustment vouchers during the life of two 4-year contracts owed
contractors are required to        the government $207,494. As a result of our review, EPA received a credit
submit adjustment vouchers to      of $4,713 from one contractor and $263,193 from another contractor, for a
EPA within 60 days of the          total of $267,906.
agreement date. These
vouchers adjust contractor
billings for the differences        What We Recommend
between billed indirect costs
and the indirect costs resulting   We recommend that the Assistant Administrator for Administration and
from the application of the        Resources Management require its Office of Acquisition Management to
negotiated indirect costs rates    track receipt of adjustment vouchers and monies owed EPA for final
for the period specified.          negotiated indirect cost rates. We also made recommendations to identify
                                   agreements where adjustments have not been made, require financial
For further information,           administrative contracting officers to provide needed information to
contact our Office of              contracting officers, and increase contracting officer and projects officer
Congressional, Public Affairs
and Management at
                                   awareness of their responsibilities related to indirect cost rate agreements
(202) 566-2391.                    and adjustment vouchers. EPA agreed with our recommendations or took
                                   alternate corrective actions that we considered satisfactory.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100308-10-P-0075.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          March 8, 2010

MEMORANDUM

SUBJECT:	              EPA Does Not Always Receive Adjustment Vouchers from Contractors
                       Report No. 10-P-0075


FROM:                  Melissa M. Heist
                       Assistant Inspector General for Audit

TO:	                   Craig E. Hooks, Assistant Administrator
                       Office of Administration and Resources Management


This is our report on the U.S. Environmental Protection Agency’s (EPA’s) practice of not always
receiving adjustment vouchers from contractors. This report contains findings that describe the
problems the EPA Office of Inspector General (OIG) identified and corrective actions the OIG
recommends. This report represents the position of the OIG and does not necessarily represent
the final EPA position. Final determinations on matters in this report will be made by EPA
managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $398,166.

Action Required

In responding to the draft report, the Agency provided corrective action plans for addressing all
recommendations. Therefore, a response to the final report is not required. The Agency should
track in the Management Audit Tracking System those recommendations not yet implemented.
We have no objections to the further release of this report to the public. The report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at 202-566-0899 or
heist.melissa@epa.gov; or Janet Kasper, Product Line Director, at 312-886-3059 or
kasper.janet@epa.gov.
EPA Does Not Always Receive                                                                                                 10-P-0075
Adjustment Vouchers from Contractors




                                  Table of Contents 


Chapters 

   1    Introduction .......................................................................................................       1        


                Purpose .......................................................................................................    1            

                Background ................................................................................................        1            

                Scope and Methodology..............................................................................                1            


   2    EPA Not Always Receiving Adjustment Vouchers from Contractors ...........                                                 3         


                EPA and OMB Policy Requires Submission and Tracking of
                    Adjustment Vouchers ...........................................................................                3

                Contractors Not Timely Submitting Adjustment Vouchers...........................                                   4

                Process for Distributing Indirect Cost Rate Agreements and
                    Receiving Adjustment Vouchers Not Effective .....................................                             5

                Lack of Timeliness Allows Contractors to Keep Government Funds...........                                         7

                Conclusion...................................................................................................     8             

                Recommendations ......................................................................................            8             

                Agency Comments and OIG Evaluation......................................................                          9


   Status of Recommendations and Potential Monetary Benefits..............................                                        10    




Appendices 

   A    Agency Response ..............................................................................................            11    


   B    Distribution .........................................................................................................    13    

                                                                                     10-P-0075




                                 Chapter 1

                                 Introduction
Purpose
          The U.S. Environmental Protection Agency’s (EPA) Office of Inspector General
          (OIG) conducted this audit to determine whether EPA is timely receiving
          adjustment vouchers and credits from contractors based on sustained Defense
          Contract Audit Agency (DCAA) audit report results.

Background
          EPA uses contracts to aid in accomplishing its mission. According to the Fiscal
          Year (FY) 2008 Acquisition Activity Report, EPA obligated over $1.5 billion in
          contracts during that fiscal year. At the request of EPA’s Office of Acquisition
          Management (OAM), DCAA performs audits of final indirect cost rate proposals
          that impact EPA contracts to determine whether costs incurred are allocable,
          reasonable, and allowable in accordance with the Federal Acquisition Regulation
          (FAR) and contract terms. For contractors other than educational institutions and
          nonprofit organizations, DCAA is normally the responsible government audit
          agency. In FY 2008, EPA requested 282 DCAA audits and received and
          processed 163 DCAA audit reports. For this same period, DCAA questioned over
          $3.2 million of claimed costs as unallocable, unreasonable, or unallowable per
          FAR and/or contract terms.

          In accordance with the allowable cost and payment clause at FAR 52.216-7, the
          contractor must submit to the contracting officer (CO) and cognizant auditor a
          final indirect cost rate proposal. Each contractor must submit an adequate
          proposal within the 6-month period following the expiration of each of its fiscal
          years. DCAA issues the audit reports to OAM and EPA financial administrative
          contracting officers (FACOs) review the results. After negotiations with the
          contractor, the FACOs establish final indirect cost rate agreements. Once the
          final indirect cost rate agreement is established, contractors are required to submit
          adjustment vouchers to EPA within 60 days of the agreement date. These
          vouchers adjust contractor billings for the differences between billed indirect
          costs and the indirect costs resulting from the application of the negotiated
          indirect costs rates for the period specified.

Scope and Methodology

          We performed this audit from February to December 2009 in accordance with
          generally accepted government auditing standards, issued by the Comptroller
          General of the United States. Those standards require that we plan and perform


                                            1

                                                                          10-P-0075


the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

According to OIG’s DCAA Monitoring Application Database, in FY 2008, there
were 39 DCAA audits closed that contained questioned costs totaling $4,978,843.
We reviewed 20 of the 39 DCAA audit reports. We stratified the universe by
high dollar and low dollar audits with high dollar audits representing questioned
costs greater than $100,000. We conducted a 100-percent review of the six high
dollar audits and selected an additional 14 audits for review.

Our work encompassed reviewing contracts located in EPA Headquarters in
Washington, DC, as well as the EPA regional offices that had contracts in our
sample (Regions 2, 3, 4, 7, and 8). We requested the Agency to provide us copies
of adjustment vouchers and checks to verify that payments had been made. If
adjustment vouchers had not been received, we requested the Agency to provide a
written explanation why. Additionally, we reviewed the Financial Data
Warehouse to determine whether vouchers were paid for the selected contracts in
our sample. We interviewed COs and project officers (PO) from Headquarters;
the five regions noted; Research Triangle Park, North Carolina; and Cincinnati,
Ohio. We also interviewed the FACO Team Leader, the EPA Audit Program
Manager for DCAA Monitoring, the Acting OAM Policy Director, and two OAM
Service Center Managers. There were no previous audits of EPA’s resolution of
DCAA reports.

Internal Control Structure

In planning and performing our audit, we reviewed management controls related
to our objective. Specifically, we examined EPA’s Acquisition Handbook, the
EPA Acquisition Regulation, and other guidelines that outline EPA’s controls and
monitoring procedures for addressing the audit resolution process. We reviewed
quality assurance plans from each program operating division, as well as OAM’s
review of the quality assurance plans. OAM Divisions as well as regional
contracting offices are empowered to develop their own quality assurance plans,
which set forth their program to ensure their acquisition products and processes
are of high quality and comply with applicable statutes as well as federal and
Agency regulations and policies.

We reviewed documents EPA completed in compliance with the Federal
Managers’ Financial Integrity Act. This included a review of the Office of
Administration and Resources Management’s FY 2008 Federal Managers’
Financial Integrity Act Assurance Letter. EPA did not identify internal control
weaknesses related to the audit’s objectives.




                                  2

                                                                                     10-P-0075




                                Chapter 2

   EPA Not Always Receiving Adjustment Vouchers 

                 from Contractors 

         EPA did not always receive adjustment vouchers from contractors for final
         negotiated indirect cost rates. In accordance with EPA policy, contractors are to
         submit adjustment vouchers within 60 days of signing the indirect rate agreement.
         For 17 of the 20 DCAA audit reports in our sample, EPA did not timely receive
         corresponding adjustment vouchers on at least one or more EPA contracts
         impacted by each DCAA audit. The 20 audit reports impacted 52 EPA contracts,
         for which EPA did not receive adjustment vouchers for 33. This occurred
         because EPA does not have an effective process for distributing indirect cost rate
         agreements and receiving adjustment vouchers. As a result, EPA allowed
         contractors to keep government funds and provided them with an interest-free
         loan in those cases where the contractor owed EPA money, sometimes for years.
         For example, one contractor that did not submit adjustment vouchers during the
         life of two 4-year contracts owed the government $207,494. As a result of our
         review, EPA received a credit of $4,713 from one contractor and $263,193 from another
         contractor, for a total of $267,906.

EPA and OMB Policy Requires Submission and Tracking of
Adjustment Vouchers

         EPA’s Acquisition Handbook requires that indirect cost rate agreements identify
         the timeframe within which contractors must submit adjustment vouchers to
         implement the rates established. According to the policy, the indirect rate
         agreements are to state that the contractor has 60 days from the date of the
         agreement to submit a voucher for any billing adjustments.

         EPA’s Acquisition Handbook establishes procedures and identifies the roles and
         responsibilities of EPA staff when processing indirect cost rate agreements.
         FACOs are responsible for distributing indirect rate agreements to both
         contractors and COs. COs are responsible for ensuring POs receive a copy of the
         indirect cost rate agreement, and POs are responsible for notifying COs if they do
         not receive the adjustment voucher within 60 days of the signed agreement. The
         CO is responsible for follow-up action with the contractor once informed that the
         adjustment voucher has not been received.

         EPA Manual 2750 outlines the EPA audit management process and contains
         policies for resolving audit recommendations, including those involving funds
         owed to EPA. To support the audit management process, EPA established a
         Management Audit Tracking System (MATS). Reports from MATS help the CO
         and office’s Audit Follow-up Coordinator monitor the status of corrective actions,


                                           3

                                                                                                   10-P-0075


          monies owed the Agency, and recommended efficiencies to which the action
          official agreed.

          Office of Management and Budget Circular A-50 provides procedures for
          executive agencies when considering reports by Inspectors General, other
          executive branch audit organizations, etc. In order to ensure effective recovery
          action, A-50 requires agencies to establish accounting and collection controls for
          amounts due to the government.

Contractors Not Timely Submitting Adjustment Vouchers
          EPA often did not receive contractor adjustment vouchers for final negotiated
          indirect cost rates within the 60-day EPA requirement. For 17 of the 20 audit
          reports in our sample, EPA did not timely receive corresponding adjustment
          vouchers on at least one or more EPA contracts. The 20 DCAA audits in our
          sample impacted 52 EPA contracts, and for 33 of those contracts the contractor
          did not submit an adjustment voucher, as shown in Figure 2-1. For seven other
          contracts in our sample, the contractor submitted the adjustment vouchers after
          the 60-day timeframe. For all nine contracts where adjustment vouchers were
          submitted within the 60-day timeframe, EPA owed the contractor money. EPA
          did not require adjustment vouchers for the remaining three contracts for various
          reasons, such as the final negotiated indirect cost rate exceeding the ceiling rate
          included in the contract.

          Figure 2-1: Receipt of Adjustment Vouchers

                                                    Receipt of Adjustment Vouchers

                                   35

                                   30
             Number of Contracts




                                   25

                                   20

                                   15

                                   10

                                   5

                                   0
                                        Received On-Time   Received Late   Not Received   Not Required

          Source: OIG analysis of EPA data.

          One contractor with two contracts in our sample did not submit the required
          adjustment vouchers for either of the contracts for 2 consecutive years. The final
          indirect cost rate agreements for both years clearly stated the contractor was
          required to submit a voucher that adjusted for the difference between billed


                                                               4

                                                                                    10-P-0075


          indirect costs and the indirect costs resulting from application of the negotiated
          final indirect cost rates within 60 days. EPA has paid the contractor a total of
          $127 million over the life of the contracts. Even small changes in indirect rates
          on such large contracts could result in thousands of taxpayer dollars owed to EPA.

          For another contract, a contractor provided services to EPA on three separate task
          orders. The final indirect cost rate agreement was signed in March 2008 and was
          for the period April 1, 2003, through March 31, 2004. The contractor submitted
          adjustment vouchers within 60 days. However, the vouchers were submitted for
          the period through October 5, 2003, rather than through the March 31, 2004, date
          as established in the final indirect cost rate agreement. After the OIG notified
          EPA of this, the contractor submitted supplemental invoices covering the entire
          period of the indirect cost rate agreement, resulting in credits to EPA for two task
          orders for over $4,700.

Process for Distributing Indirect Cost Rate Agreements and
Receiving Adjustment Vouchers Not Effective
          EPA does not have an effective process for distributing indirect cost rate
          agreements and receiving adjustment vouchers. Specifically, (1) EPA does not
          track the receipt of adjustment vouchers required to be submitted by contractors,
          (2) COs and POs do not always receive indirect rate cost agreements, (3) some
          COs and POs were unaware of their responsibilities related to indirect cost rate
          agreements, and (4) some COs wait until the entire contract period of
          performance expires before ensuring receipt of adjustment vouchers.

          EPA Does Not Track Receipt of Adjustment Vouchers

          EPA does not track the receipt of adjustment vouchers in MATS. During 2008,
          EPA tracked audit report resolution in MATS, but closed the audit reports in
          MATS after it executed a final indirect rate agreement. EPA did not track the
          subsequent receipt of the corresponding adjustment vouchers related to the
          indirect rate agreements. In 2009, EPA began using a different system to track
          audit report resolution, but this system also is not used to track receipt of
          adjustment vouchers. Further, EPA does not have any other internal controls to
          track the receipt of adjustment vouchers, including assigning responsibility for
          tracking to any one group or person. Because of the lack of any tracking system
          and internal controls, EPA is relying on contractors to submit adjustment
          vouchers and identify the amount of money owed to either EPA or the contractor.

          COs and POs Not Always Receiving Indirect Cost Rate Agreements

          FACOs do not always provide COs with the indirect cost rate agreements
          necessary to administer the contracts for which they are responsible. Of the
          14 COs interviewed, 3 said they never received the indirect cost rate agreement.
          In one case, the EPA FACO issued a unilateral indirect cost rate agreement. Due


                                            5

                                                                            10-P-0075


to an oversight, the FACO never provided the agreement to the contractor or
EPA’s contracting officers. While this case was an oversight, FACOs do not
identify the impacted contracts in the indirect cost rate agreement and do not
always proactively identify the COs that should receive the indirect cost rate
agreement. Instead, the FACOs post the indirect rate agreement on an EPA
software system that can be accessed by COs or they provide the rate agreement
to the head of each contracting office (region, Research Triangle Park, etc.). The
Office of Administration and Resources Management’s Financial Analysis and
Oversight Service Center staff told us it is difficult for them to identify the current
CO because of turnover and changes in the CO responsible for each contract.

Likewise, 10 of 14 POs we interviewed said the COs did not provide them the
indirect cost rate agreement as required by the EPA Acquisition Handbook. COs
did not provide the POs the rate agreement because they were not aware of this
requirement or because they did not receive the rate agreement from the FACO.
In some cases, the POs were only made aware of the existence of the indirect cost
rate agreement when the contractor submitted the adjustment voucher. POs are
not aware that adjustment vouchers are due if they do not receive a copy of the
indirect cost rate agreement.

COs and POs Not Always Aware of Their Responsibilities

COs and POs were not always aware of their responsibilities regarding indirect
cost rate agreements and adjustment vouchers. Seven of 13 COs interviewed
were not familiar with requirements of the EPA Acquisition Handbook regarding
their responsibilities for indirect cost rate agreements and adjustment vouchers.
Six COs were not aware that they were required to provide a copy of the indirect
cost rate agreement to the PO. Five COs were not aware that they should contact
the contractor after receiving notification from the PO that the adjustment voucher
had not been received. Also, 10 of 14 POs interviewed were not familiar with
their responsibilities. Seven POs did not know that the contractor should submit
an adjustment voucher within 60 days of the date of the indirect cost rate
agreement. Further, seven POs did not know that if the adjustment voucher is not
received they must inform the CO.

Adjustment Vouchers Not Submitted until Contract Close-Out

For some contracts in our sample, the contractor did not submit adjustment
vouchers until after the contract had expired. For example, one contractor had
two contracts for which indirect cost rate agreements were signed in 2005, 2006,
2007, and 2008 but adjustment vouchers for these years were not submitted until
2008, after the contract’s period of performance had expired. All of the final
indirect cost rate agreements clearly stated that the adjustment vouchers were due
within 60 days.




                                   6

                                                                                   10-P-0075


          Some EPA COs indicated that it is their practice to wait until the end of the
          contract and process indirect rate agreement changes as part of contract close-out.
          However, EPA’s experience with another contractor highlights the consequences
          of waiting until contract close-out – by the time the final indirect cost rate
          agreement was signed the contractor no longer had contracts with EPA, the
          president of the company had retired, and the business no longer existed.
          Additionally, the contractor has been nonresponsive to inquiries from EPA and
          EPA staff indicated that obtaining an adjustment voucher would be difficult under
          the circumstances.

Lack of Timeliness Allows Contractors to Keep Government Funds

          By not ensuring that adjustment vouchers are received in a timely manner, EPA is
          allowing contractors to keep government funds and providing them with an
          interest-free loan when the contractor owes EPA money. For example, in 2007,
          EPA and one of its contractors signed indirect cost rate agreements for the periods
          November 1996 through October 2000 and November 2000 through October
          2003. After the OIG asked EPA whether the contractor had submitted the
          adjustment voucher, EPA reminded the contractor that adjustment vouchers were
          needed. The contractor subsequently submitted a credit voucher to EPA in
          September 2009 acknowledging that it owed EPA over $263,000. Also, as noted
          previously, our notifying EPA of a contractor submitting an incorrect adjustment
          voucher resulted in $4,700 in credits to EPA.

          In another case, one of EPA’s contractors did not submit adjustment vouchers for
          two contracts to EPA until 2008, after the contract’s period of performance had
          expired. From 2001 through 2006, EPA paid the contractor a total of $20,150,583
          under the two contracts. As shown in Tables 2-1 and 2-2, one contractor that did
          not submit adjustment vouchers during the life of two 4-year contracts owed the
          government $207,494. These funds could have been used to conduct other work.

          Table 2-1: Example of Interest-Free Loan to Contractor for Contract #1
                                                            Date Contractor
                        Date of Indirect          Date        Submitted
            Fiscal        Cost Rate           Adjustment      Adjustment      Amount Due
             Year         Agreement           Voucher Due      Voucher          to EPA
             2002           4/18/05             6/17/05         9/24/08        $30,039
             2003          12/28/06             2/26/07         9/24/08        $45,655
             2004            9/6/07             11/05/07        9/24/08        $13,234
             2005           6/26/08             8/25/08         9/24/08        $56,692
           Total                                                               $145,620
          Source: OIG analysis of EPA data.




                                               7

                                                                                    10-P-0075


         Table 2-2: Example of Interest-Free Loan to Contractor for Contract #2
                                                            Date Contractor
                        Date of Indirect          Date        Submitted
              Fiscal      Cost Rate           Adjustment      Adjustment      Amount Due
               Year       Agreement           Voucher Due      Voucher          to EPA
               2002         4/18/05             6/17/05        10/15/08        $11,768
               2003        12/28/06             2/26/07        10/15/08        $22,866
               2004          9/6/07             11/05/07       10/15/08         $4,250
               2005         6/26/08             8/25/08        10/15/08        $22,990
             Total                                                             $61,874
         Source: 	OIG analysis of EPA data.


Conclusion
         EPA needs to increase management and staff awareness of their responsibilities
         for ensuring that contractors submit adjustment vouchers timely. The submission
         of adjustment vouchers resulting from negotiating final indirect cost rates with
         contractors helps ensure that EPA pays, and contractors receive, a fair price for
         services rendered to the government. Systemic breakdowns in EPA’s
         management of this process have resulted in contractors unnecessarily keeping
         taxpayer dollars for years.

Recommendations
         We recommend that the Assistant Administrator for Administration and
         Resources Management:

         2-1 	     Track receipt of adjustment vouchers and monies owed EPA for final
                   negotiated indirect cost rates in accordance with Office of Management
                   and Budget Circular A-50.

         2-2 	     Identify all final indirect cost rate agreements where adjustment vouchers
                   have not been submitted and track them to ensure receipt.

         2-3 	     Require FACOs to identify all contracts impacted and list those contracts
                   in the final indirect cost rate agreements.

         2-4 	     Require FACOs to provide the final indirect cost rate agreement directly
                   to the COs for contracts impacted by the agreement.

         2-5 	     Increase COs’ and POs’ awareness of their responsibilities for processing
                   and managing indirect cost rate agreements and adjustment vouchers
                   through discussions and presentations at meetings and conferences on
                   contract management, as well as through articles in OAM’s quarterly
                   newsletter on current policy initiatives.



                                               8

                                                                                  10-P-0075


Agency Comments and OIG Evaluation

         The Agency’s response sufficiently addressed all our recommendations. 

         EPA agreed with recommendations 2-1, 2-2, 2-3, and 2-5, and provided milestone 

         dates for completion of the following actions: 


            •	 Establish a process to ensure that adjustment vouchers and monies owed
               EPA are tracked (March 31, 2010);
            •	 Publish an article in the next Hot Tips to raise awareness for enhanced CO
               oversight (March 31, 2010);
            •	 List prime contracts in indirect cost rate agreements, and incorporate a
               statement in the final indirect cost rate agreements identifying that the
               purpose of the agreement is to establish indirect rates applicable to all
               prime contracts and subcontracts that the vendor holds with EPA
               (February 1, 2010); and
            •	 Increase knowledge of COs’ and POs’ awareness by making presentations
               at upcoming contractor forums (Spring 2010) and EPA’s annual
               Acquisition Conference.

         EPA did not provide a milestone date in its written response for recommendation
         2-2, but later provided a milestone of March 31, 2010, in separate correspondence.

         In response to recommendation 2-4, EPA stated that as of October 1, 2009, the
         FACOs are required to distribute negotiated indirect cost rate agreements to all
         affected OAM Service Center Managers and Regional Contracting Officer
         Supervisors. At the exit conference, EPA stated that these staff members will
         distribute the negotiated indirect cost rate agreements to COs. This practice meets
         the intent of our recommendation.

         As a result of our review, EPA received a credit of $4,713 from one contractor
         and $263,193 from another contractor, for a total of $267,906.




                                          9

                                                                                                                                              10-P-0075



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                    POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                        Planned
    Rec.    Page                                                                                                       Completion   Claimed    Agreed To
    No.      No.                           Subject                             Status1        Action Official             Date      Amount      Amount

    2-1       8     Track receipt of adjustment vouchers and monies              O       Assistant Administrator for   3/31/2010
                    owed EPA for final negotiated indirect cost rates in                    Administration and
                    accordance with Office of Management and Budget                       Resources Management
                    Circular A-50.

    2-2       8     Identify all final indirect cost rate agreements where       O       Assistant Administrator for   3/31/2010
                    adjustment vouchers have not been submitted and                         Administration and
                    track them to ensure receipt.                                         Resources Management

    2-3       8     Require FACOs to identify all contracts impacted             C       Assistant Administrator for    2/1/2010
                    and list those contracts in the final indirect cost rate                Administration and
                    agreements.                                                           Resources Management

    2-4       8     Require FACOs to provide the final indirect cost             C       Assistant Administrator for   10/1/2009
                    rate agreement directly to the COs for contracts                        Administration and
                    impacted by the agreement.                                            Resources Management

    2-5       8     Increase COs’ and POs’ awareness of their                    O       Assistant Administrator for   6/30/2010
                    responsibilities for processing and managing                            Administration and
                    indirect cost rate agreements and adjustment                          Resources Management
                    vouchers through discussions and presentations at
                    meetings and conferences on contract
                    management, as well as through articles in OAM’s
                    quarterly newsletter on current policy initiatives.




     -        -     NOTE: As a result of our review, EPA received a                      Assistant Administrator for                $267.9      $267.9
                    credit of $4,713 from one contractor and $263,193                       Administration and
                    from another contractor, for a total of $267,906.                     Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                     10 

                                                                                      10-P-0075




                                                                                  Appendix A


                               Agency Response
MEMORANDUM

SUBJECT:      EPA Does Not Always Receive Adjustment Vouchers from Contractors
              Project Number No. OA-FY09-0808

FROM:         Craig E. Hooks
              Assistant Administrator

TO:           Melissa M. Heist
              Assistant Inspector General for Audit

      We appreciate the opportunity to comment on the draft report entitled, “EPA Does Not
Always Receive Adjustment Vouchers from Contractors,” dated December 16, 2009. Our
comments on the report and recommendations are below:

Specific Recommendations and Responses:

Recommendation 2-1 – We recommend that the Assistant Administrator (AA) for the
Office of Administration and Resources Management (OARM) track receipt of adjustment
vouchers and monies owed EPA for final negotiated indirect cost rates in accordance with
OMB Circular A-50.

Response – OAM concurs with this recommendation. OAM will establish a process to ensure
that adjustment vouches and monies owed to EPA are tracked effective March 31, 2010.

Recommendation 2-2 - We recommend that the Assistant Administrator (AA) for the
Office of Administration and Resources Management (OARM) identify all final indirect
cost rate agreements where adjustment vouches have not been submitted and track them to
ensure receipt.

Response – OAM concurs with this recommendation. The Contracting Officers (COs) will
review all final indirect cost rate agreements and determine which vouchers have not been
submitted and track them to ensure receipt. OAM will also include an article in the next Policy
Hot Tips (see response to Recommendation 2-5) to raise awareness for enhanced COs oversight.
Policy Hot Tips article will be issued by March 31, 2010.

Recommendation 2-3- We recommend that the Assistant Administrator (AA) for the Office
of Administration and Resources Management (OARM) require FACOs to identify all
contracts impacted and list those contracts in the final indirect cost rate agreements.


                                              11 

                                                                                         10-P-0075


Response – We concur with this recommendation. The Financial Administrative Contracting
Officers (FACOs) will list the prime contracts in the indirect cost rate agreements. In addition,
the FACOs will incorporate a statement identifying that the purpose of the agreement is to
establish indirect rates which will apply to all of the prime contracts and subcontracts which the
vendor holds with EPA. This change will be implemented for all indirect cost rate agreements
issued on or after February 1, 2010.

Recommendation 2-4 – We recommend that the Assistant Administrator (AA) for the
Office of Administration and Resources Management (OARM) require FACOs to provide
the final indirect costs rate agreement directly to the Cos for contracts impacted by the
agreement.

Response – We agree that it is important that the final indirect cost rate agreement is provided to
the COs for contracts impacted by the agreement. We, however, do not agree that the FACOs
should be required to provide them directly to the COs. Instead, we believe that our current rate
agreement process meets this requirement. Effective October 1, 2009, the FACOs are required
to distribute negotiated indirect cost rate agreements to all affected OAM Service Center
Managers and Regional Contracting Officer Supervisors. Since contract staff assignments
fluctuate on a regular basis, this ensures that the agreements will be distributed to the current
contracting personnel who are managing the contracts. By submitting the rate agreements to the
managers and supervisors, there is increased continuity and visibility in the process.

Recommendation 2-5 – We recommend that the Assistant Administrator (AA) for the
Office of Administration and Resources Management (OARM) increase COs’ and POs’
awareness of their responsibilities for processing and managing indirect cost rate
agreements and adjustment vouchers through discussions and presentations at meetings
and conferences on contract management, as well as through articles in OAM’s quarterly
newsletter on current policy initiatives.

Response – OAM concurs with this recommendation. This topic will also be presented at the
Spring 2010 contractor forum in San Francisco, CA, and the annual Project Officer/Contracting
Officer (POCO) and Acquisition conference, Travel funds permitting. OAM will also include
information with respect to this topic in the next “Policy Hot Tips”. The article will discuss the
roles and responsibilities of the Contractors, Contracting Officers Representatives (CORs),
Contract Specialists (CSs), and COs; as well as the importance of processing adjustment
vouchers in a timely manner.

      If you have any questions regarding this response, please contact me at (202) 564-4600 or
John Gheradini at (202) 564-4310.




                                                12 

                                                                                 10-P-0075


                                                                             Appendix B

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Acting Director for Acquisition Management, Office of Administration and
       Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Acting Inspector General




                                            13 

